                                                  Audit of the NRC Byproduct Materials
                                               License Application and Review Process


EXECUTIVE SUMMARY (U)

    BACKGROUND (U)

         The terrorist attacks of September 11, 2001, heightened the
         Nation's concerns that the loss or theft of radioactive material could
         lead to malicious use in a radiological dispersal device (RDD). An
         RDD, also known as a dirty bomb, is a conventional explosive that
         incorporates radioactive material and releases it on detonation.
         The major purpose for a dirty bomb is to create terror and
         disruption, not to cause death by radiation. (U)

         The U.S. Nuclear Regulatory Commission's (NRC) mandate to
         protect public health and safety and the environment, and to
         provide for the common defense and security, includes regulation
         of radioactive byproduct material used in medical, academic, and
         industrial applications. Byproduct material is radioactive material
         generated by or from a nuclear reactor. Examples of byproduct
         material include substances containing radioactive isotopes such
         as cobalt-60, cesium-137, and iridium-192. (U)

         The Atomic Energy Act of 1954, as amended, (AEA) authorizes
         NRC to issue licenses to applicants seeking to use byproduct
         material. The AEA also authorizes NRC to require applicants to
         provide, in writing, information that the NRC Commission
         determines is necessary to decide the technical and financial
         qualifications of the applicant, the character and citizenship of the
         applicant, or any other qualifications of the applicant that the
         Commission may deem appropriate for the license, even after a
         license is granted. Each year, the agency issues approximately
         4,200 new licenses, license renewals, and license amendments for
         nuclear materials licenses. (U)

         There are approximately 21,800 materials licenses in the United
         States, and NRC administers about 4,500 of them. The remaining
         licenses are administered by regulatory authorities in 33 States,
         called Agreement States. The States must first demonstrate that
         their regulatory programs are compatible with NRC’s program and
         are adequate to protect public health and safety. (U)

    PURPOSE (U)

         The purpose of this report is to convey our assessment of selected
         aspects of NRC’s materials license application and review process.
         We conducted this work as part of a larger effort to determine
         whether NRC’s oversight of byproduct material provides reasonable



                                     i
                                                Audit of the NRC Byproduct Materials
                                             License Application and Review Process


      assurance that licensees account for and control the materials. Our
      specific objective for this report was to determine if NRC ensures,
      through its license application and review process, that only
      legitimate entities receive NRC byproduct material licenses. See
      Appendix A for details on the scope and methodology for this audit.
      (U)

RESULTS IN BRIEF (U)

      Although the events of September 11 emphasized the importance
      of identifying the vulnerabilities in Government-regulated programs
      and the agency has taken steps to address some vulnerabilities,
      NRC officials are not aware of the full spectrum of vulnerabilities in
      the byproduct material license application and review process. This
      awareness is lacking because NRC has not looked inwards at its
      own business and regulatory processes. Specifically, the agency
      has not conducted vulnerability assessments of all aspects of the
      materials program, including the license application and review
      process. Consequently, individuals with malevolent intentions
      could exploit vulnerabilities in the license application and review
      process to obtain byproduct material for use in a dirty bomb. (U)

RECOMMENDATIONS (U)

      This report makes two recommendations to the Executive Director
      for Operations to (1) conduct a complete vulnerability assessment
      of NRC’s materials program, including the license application and
      review process and the methods used by licensees to purchase
      byproduct material from sellers; and (2) modify the license
      application and review process to mitigate the risks identified in the
      vulnerability assessment. (U)

AGENCY COMMENTS (U)

      On February 7, 2006, the Deputy Executive Director for Materials,
      Research, State and Compliance Programs provided comments
      concerning the draft audit report. The agency’s comments focused
      on NRC’s ongoing and planned security efforts for byproduct
      material, but did not substantially address OIG’s finding that the
      agency does not have full awareness of the vulnerabilities in its
      materials license application and review process. Furthermore, the
      Deputy Executive Director did not state whether the agency
      concurred with the recommendations, but rather proposed
      alternative recommendations that OIG believes would not correct
      the identified deficiencies. Appendix B contains a facsimile




                                  ii
                                     Audit of the NRC Byproduct Materials
                                  License Application and Review Process


reproduction of NRC’s formal comments and Appendix C contains
OIG’s specific response to each comment. (U)




                         iii
